PROCUREMENT

Actions Needed to
Enhance Training and
Certification
Requirements for
Contracting Officer
Representatives




                OIG-12-3
             Office of Inspector General
       U.S. Government Accountability Office
                  Report Highlights

April 2012


PROCUREMENT
Actions Needed to Enhance Training and Certification
Requirements for Contracting Officer Representatives

What We Found
Contracting Officer Representatives assist Contracting Officers in the
proper procurement and administration of contracts and play a key role in
ensuring that contractors abide by the contracts. The Office of the
Inspector General assessed the extent to which GAO has developed the
policies and programs necessary to ensure that GAO staff appointed as
Contracting Officer Representatives are trained and certified.
Although GAO’s current policy encourages, but does not require,
certification training and continuous learning for Contracting Officer
Representatives, the agency has efforts under way to expeditiously revise
training and certification requirements based on the executive branch’s
risk-based certification program. This risk-based program has varying
requirements for training, experience, and continuous learning for
Contracting Officer Representatives in civilian agencies, depending upon
the types of contracts being managed. To strengthen contract oversight,
GAO has plans to require Contracting Officer Representatives take
training this year. In addition, GAO executives have assigned a senior
manager to further expedite the development of its revised policy.
However GAO lacks a comprehensive plan that includes time frames,
availability of training resources, and a method to track and monitor when
staff complete training. Until the revised program is fully implemented,
GAO is at risk that some Contracting Officer Representatives may not
have the right skills and training to oversee contractors.


What We Recommend
This report recommends that GAO develop and implement a
comprehensive action plan with milestones for revising its policy and
processes for training and certifying Contracting Officer Representatives.




                             OIG-12-3 ContrDFWing Officer Representative Training
Abbreviations
COR        Contracting Officer Representative
FAITAS     Federal Acquisition Institute Training Application System
GAO        Government Accountability Office
OFPP       Office of Federal Procurement Policy
                                                                     United States Government Accountability Office




Memorandum
Date:           April 11, 2012

To:             Comptroller General Gene Dodaro

From:           Inspector General Frances Garcia

Subject:        Procurement: Actions Needed to Enhance Training and Certification
                Requirements for Contracting Officer Representatives

GAO’s mission is to support the Congress in meeting its constitutional responsibilities
and to help improve the performance and ensure the accountability of the federal
government for the benefit of the American people. To accomplish its mission, GAO has
allocated about 18 percent of its resources for the procurement of goods and services to
support agency operations.1 Procurements at GAO vary in size and complexity, including
contracts for goods and services costing less than $10,000, interagency agreements for
financial management and information technology services, and a multimillion-dollar
facilities maintenance contract.

Once a contract has been awarded, GAO’s Contracting Officer Representatives (COR)2
play a key role in ensuring that contractors abide by the contracts. As stated in GAO’s
procurement guidelines,3 the CORs provide critical acquisition and technical functions to
ensure that contractual agreements are properly managed. CORs, who are appointed to
their positions, are often the first to recognize when a program or contract is
underperforming.4




1
 GAO’s fiscal year 2012 budget is $541.1 million. See P.L. 112-74, Consolidated Appropriations Act, FY 2012,
December 23, 2011.
To be consistent with the latest Office of Federal Procurement Policy Guidance and the Federal Acquisition
2

Regulation (FAR), throughout this report we will use the term Contracting Officer Representative (COR) rather than
Contracting Officer Technical Representative (COTR).
GAO Order 0625.1, U.S. Government Accountability Office Procurement Guidelines (May 7, 2009).
3


Office of Federal Procurement Policy Memorandum, Federal Acquisition Certification for Contracting Officer’s
4

Representatives (Sept. 6, 2011).



Page 1                                               OIG-12-3 Contracting Officer Representative Training
Although GAO’s current policy encourages, but does not require, certification training
and continuous learning for CORs, the agency has efforts under way to expeditiously
establish training and certification requirements based on an executive branch program
in the Office of Federal Procurement Policy (OFPP).5 That program requires civilian
agencies to train and certify CORs according to standards first established in 2007.

In September 2011, OFPP developed a three-tiered, risk-based certification program for
civilian agencies with varying requirements for training, experience, and continuous
learning, depending on the types of contracts being managed. For example, CORs who
handle low-risk contracts to purchase supplies are required to receive 8 hours of training,
while CORs who handle moderate-risk service contracts are required to have both 1 year
of previous experience and 40 hours of training. These requirements became effective
January 1, 2012. (For more details on OFPP’s training and certification program, see
attachment I.) To strengthen contract oversight, GAO has plans to require that CORs
take comprehensive training this year and to revise its COR training and certification
policy and processes needed to fully implement such a program at GAO. Until this
program is fully implemented, the agency is at risk that some CORs may not have the
right skills and training to oversee contractors.

For this report, we assessed the extent to which GAO has developed the policies and
programs necessary to ensure that GAO staff appointed as CORs are trained and
certified. To do our work, we reviewed GAO’s existing training and certification policies
and programs and conducted a literature review of reports, policies, and relevant laws
related to acquisition workforce development. We also compared a January 2012 draft
proposal on COR certification developed by GAO’s Acquisition Management with current
policy developed by the OFPP for use by civilian agencies. Our comparison focused on
the following features: use of a risk-based approach for training and certification,
responsibilities for COR appointments, provisions for continuous learning, a mechanism
for tracking and monitoring COR training and certification, and transition strategy. We
also acquired Acquisition Management documentation on GAO employees who serve as
CORs and their training and obtained Acquisition Management staff views on the work
that remains to put a program in place. Finally, we interviewed GAO managers and staff
who are knowledgeable about GAO’s contract administration.

We conducted this performance audit from August 2011 to April 2012, in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




5
 Under the authority of 41 U.S.C. §§1101 et seq., the Office of Federal Procurement Policy, which is located in the
Office of Management and Budget, provides overall direction of governmentwide procurement policies and procedures
in the executive branch.



Page 2                                               OIG-12-3 Contracting Officer Representative Training
Background
The authority and responsibility to contract for authorized GAO supplies and services is
vested in the Comptroller General. This responsibility has been delegated, through the
Chief Administrative Officer and Controller, to the Director, Acquisition Management, as
GAO’s Contracting Officer. The Controller, to whom the Contracting Officer reports, may
appoint other Contracting Officers and impose limitations on their authority, as
circumstances warrant.

Contracting Officers are authorized to enter into, administer, or terminate GAO contracts
by applying appropriate laws, regulations, and procedures and are responsible for
managing and coordinating all GAO procurements and safeguarding GAO’s interests.
Specifically, Contracting Officers ensure performance of and compliance with the terms
of contracts; ratify procurement commitments; ensure sufficient funds are available for
obligation; ensure contractors receive impartial, fair, and equitable treatment; and, as
appropriate, request and consider the advice of specialists in various fields related to
GAO procurements. CORs assist Contracting Officers in the proper procurement and
administration of contracts. Specific responsibilities GAO has assigned to CORs include
the following:

        monitor and ensure that the contractor performs the technical requirements of the
         contract in accordance with the contract terms, conditions, specifications, and
         drawings;

        communicate and coordinate directly with the contractor, as necessary, to carry
         out their duties as CORs;

        perform or facilitate any inspections that are necessary to ensure compliance with
         all contract technical requirements and require the contractor to correct any
         deficiencies;

        carefully and thoroughly review all contract invoices prior to acceptance of any
         work, deliverable, service, or product; and

        promptly request the de-obligation of any excess funds in a timely manner (i.e.,
         prior to the end of the fiscal year) to ensure that funds are available for other
         purposes.

In addition to performing these responsibilities, CORs also must promptly notify
Contracting Officers and contract specialists of the first indications of contract problems
(e.g. technical or cost-related).

GAO Is Revising Its Policy on COR Training and Certification, and Further Actions
Are Needed to Implement New Requirements
Currently, the GAO order that sets procurement policy, GAO Order 0625.1, U.S.
Government Accountability Office Procurement Guidelines, does not contain specific
requirements for COR training and certification. In September 2011, GAO’s Acquisition



Page 3                                      OIG-12-3 Contracting Officer Representative Training
Management Director told us she had received guidance from GAO’s Chief
Administrative Officer to establish a COR training and certification program modeled
after the updated training program established by OFPP. In addition to revising GAO’s
policy, Acquisition Management staff noted that other actions would be needed to fully
implement the new training and certification requirements. However, they could not
estimate when full implementation of the revised training requirements would occur. In
March 2012, GAO executives also assigned a senior manager to lead and further
expedite the agency’s efforts in establishing a COR training and certification program.

GAO Is Updating Its Current Procurement Policy to Include Requirements for COR
Training and Certification
GAO’s current procurement policy contained in GAO Order 0625.1 provides information on
the roles and responsibilities for CORs, but does not include specific training and
certification requirements as called for by OFPP. Instead, GAO’s policy strongly
encourages CORs to complete a 5-day comprehensive COR training course and to
maintain their skills through continuous learning. GAO’s policy also specifies that GAO
staff appointed as CORs to oversee a purchase order, contract, delivery order, or
interagency agreement for services with a period of performance of 6 months or longer,
must have the skills necessary to perform postaward administrative functions on behalf of
the Contracting Officer. However, because GAO’s current policy does not require CORs to
complete training, the agency does not have a process in place to ensure that CORs have
the skills to perform the necessary administrative functions for contract oversight.

Based on guidance provided by GAO’s Chief Administrative Officer, Acquisition
Management staff have drafted a new procurement policy that includes specific training
and certification requirements modeled after key features of OFPP’s training program,
including OFPP’s September 2011 update. Specifically, GAO’s draft policy established
training and certification requirements for COR training that (1) are risk-based, in that the
required training hours vary based on certification level; (2) address how CORs are to be
appointed; and (3) include provisions for continuous training to maintain certification.

GAO Lacks a Comprehensive Plan to Implement Revised COR Training Requirements
Although GAO has taken steps to draft a new policy for COR training and certification,
the agency lacks an implementation plan that includes time frames, availability of training
resources, and a method to track and monitor when staff complete training. For example,
GAO needs to inform both CORs and their supervisors of the new training requirements
and to make the mandatory training available. In the near term, because Acquisition
Management believes the majority of CORs have not been trained, GAO is planning to
require that CORs attend a 5-day COR training course, a 2-day appropriations law
course, and annual ethics training by July 2012. However, as of March 2012, the plan for
new training requirements has not been communicated to the CORs or their supervisors.

Acquisition Management staff have made some progress in considering how the training
and certification requirements in the draft policy could be implemented, and GAO is
creating a task force led by a senior manager to assist Acquisition Management in



Page 4                                     OIG-12-3 Contracting Officer Representative Training
further developing a plan to implement new requirements. Before the plan can be
finalized, however, several key issues need to be addressed. They include the following:

        Implementation time frame: Currently, no milestones exist for finalizing GAO’s
         draft policy or for completing key elements necessary for implementing a new
         training and certification program, such as identifying CORs by training level (i.e.,
         I, II, and III); providing training opportunities appropriate for each level within the
         time frame specified for in the draft policy; establishing mechanisms for tracking
         and monitoring training and certification; and revising GAO’s order to change the
         training and certification requirements for CORs.

        Risk-based approach to COR training and identification of CORs: To be
         consistent with its draft policy, GAO will need to train CORs using a risk-based
         approach that differentiates between Level I, Level II, and Level III COR training
         and experience requirements. (See attachment I for more details on training
         levels.) Currently, Acquisition Management’s list of CORs only includes CORs
         overseeing contracts or purchase orders with option years—that is, CORs who
         have more significant responsibility than Level I CORs with low-risk supply
         contracts. Since continuous learning hours vary by level, identifying CORs by
         level will become even more important over time.

        Opportunities for continuous learning: GAO will need to identify and provide
         opportunities for continuous learning in order for CORs to maintain their
         certifications.

        Tracking and monitoring system for COR training and certification: With no
         current requirement for COR training, GAO does not have a mechanism to track
         the training, experience, and certifications for CORs. Such a system will be a key
         element to help ensure compliance with new training requirements. Acquisition
         Management has been looking into the possibility of using GAO’s Training
         Information System or the Federal Acquisition Institute Training Application
         System to be a repository of COR training records and COR certifications.

Delays in Implementing the Revised COR Training Policy and Lack of a Monitoring
Mechanism May Result in Less Effective Contract Oversight
In its Framework for Assessing the Acquisition Function at Federal Agencies,6 GAO
commented that agencies require staff with the right skills and training to ensure
contractors provide the needed goods and services. According to the framework, the key
question to ask is: What actions has the agency taken to ensure that it has adequate
staff with the right skills, knowledge, and training to implement policies and processes to
oversee contractors? Until GAO completes all actions necessary to establish COR
training and certification requirements at GAO and develops a mechanism to monitor



6
 GAO, Framework for Assessing the Acquisition Function at Federal Agencies, GAO-05-218G (Washington, D.C.:
September 2005).



Page 5                                             OIG-12-3 Contracting Officer Representative Training
completion of training, the agency risks the possibility that its CORs will have skill and
knowledge gaps, and potentially be less effective in contract oversight.

Since GAO does not require or track training or certification for CORs, there could be skill
and knowledge gaps among GAO’s COR workforce. Based on an informal e-mail inquiry
in 2011, Acquisition Management believes the majority of CORs have not received training
beyond its annual ethics training course. Delaying implementation of the draft policy with
new training requirements may expose GAO to less effective contract oversight.

Conclusion
CORs provide critical acquisition functions and require the right skills and training to
ensure that contractors meet their commitments. GAO recognizes the importance of a
strong COR training and certification program at the agency and has taken positive steps
to bring such a program into existence, including drafting new COR training requirements.
However, further actions will be needed to complete this initiative. While GAO has begun
work on a revised policy and has assigned a senior manager to assist Acquisition
Management in this effort, the agency does not yet have a comprehensive plan for
completing all actions necessary to get a fully trained and certified COR workforce in
place. Without a plan that assigns responsibilities for resolving these issues and includes
milestones for completion, it is unclear when GAO will achieve the benefits of a COR
training and certification program—such as reduced risk that skill and knowledge gaps
among its COR workforce could lead to less than effective contract oversight.

Recommendations
To help ensure that GAO can achieve a fully trained and certified COR workforce, we
recommend that the Comptroller General ensure that GAO develop and implement an
action plan with milestones for revising its policy and processes for training and certifying
CORs. This plan should address unresolved issues we identified in this report.

Agency Comments
The Inspector General provided GAO with a draft of this report for review and comment.
GAO agreed with our recommendation. The agency also provided technical comments
that we incorporated, as appropriate.

Actions taken in response to our recommendations are expected to be reported to my
office within 60 days.


We are sending copies of this report to GAO’s Chief Administrative Officer, Chief
Operating Officer, General Counsel, Controller, Acquisition Management Director, and
GAO’s Audit Advisory Committee.




Page 6                                     OIG-12-3 Contracting Officer Representative Training
The report also is available at no charge on the GAO website at
http://www.gao.gov/about/workforce/ig.html.

If you or your staff have any questions about this report, please contact me at
(202) 512-5748 or garciaf@gao.gov. Key contributors to this report were Cathy Helm
(Deputy Inspector General) and Wendy Jaffe.



Attachments (2)




Page 7                                  OIG-12-3 Contracting Officer Representative Training
Attachment I: Summary of Key Features of the Office of Federal Procurement
Policy’s September 2011 Update Relating to Contracting Officer Representative
Certification and Training
In the executive branch, the Office of Federal Procurement Policy (OFPP) has established
a Contracting Officer Representative (COR) training and certification program for civilian
agencies.7 Beginning in November 2007, OFPP established a structured training program
for CORs that standardized competencies and training across civilian agencies, with the
intent of improving the collective stewardship of taxpayer dollars. OFPP made each
agency’s Chief Acquisition Officer responsible for the policies and programs necessary to
implement this certification program and ensure that CORS have essential competencies.
To comply with OFPP’s new policy, all CORs appointed to a contract after the effective
date of the policy were to be certified not later than 6 months from the date of appointment
and maintain their skills through continuous learning.

OFPP revised and strengthened its policy on COR training for civilian agencies in the
executive branch as of September 2011. As explained by OFPP, where the previous
certification program had just one level of certification for all CORs, the new program has
three levels of certification with varying requirements for training, experience, and
continuous learning, depending of the types of contracts being managed. For example,
CORs should be developed and assigned as follows:

        Level I: 8 hours of training and no experience required. This level of COR is
         generally appropriate for low-risk contract vehicles, such as supply contracts and
         orders.

        Level II: 40 hours of training and 1 year of previous COR experience required.
         This level of COR is generally appropriate for contract vehicles of moderate to
         high complexity, including both supply and service contracts.

        Level III: 60 hours of training and 2 years of previous COR experience required on
         contracts of moderate to high complexity that require significant acquisition
         investment. Level III CORs are the most experienced CORs within an agency and
         should be assigned to the most complex and mission-critical contracts within the
         agency.

Additionally, the September 2011 policy specifies that the Chief Acquisition Officer, in
consultation with other appropriate agency officials, is responsible for developing and
maintaining an acquisition career management program to ensure an adequate
professional workforce.




7
 While GAO is not subject to the OFPP policy memorandum relating to COR certification, GAO is currently reviewing
the OFPP program as a basis for making changes to GAO’s internal policies.



Page 8                                               OIG-12-3 Contracting Officer Representative Training
Other features of the OFPP policy include the following:

        Program offices nominate the COR in writing, but the Contracting Officer has the
         responsibility to determine who is most appropriate to be the COR and to make
         this appointment in writing;

        each agency manages its own certification program; and

        each agency develops its own transition program to implement the new policies
         (within certain parameters) including grandfathering in the current COR workforce.

With respect to continuous learning, OFPP prescribes varying levels of training hours
based on certification level. Level I requires 8 hours every 2 years; Level II requires 40
hours every 2 years; and Level III requires 40 hours every 2 years. Per OFPP, it is not
intended that CORs retake their original COR training classes for continuous learning.
Rather, it is intended that CORs should take courses relevant to the work they are
performing as CORs.

Finally, OFPP’s September 2011 policy addresses agencies’ management information
system for tracking and monitoring COR training. OFPP states that agencies and
individuals are responsible for maintaining certification documentation for quality
assurance purposes. Agencies are responsible for tracking their COR workforce,
including its continuous learning requirements. Further, executive branch agencies will
be required to enter their training data for CORs into the Federal Acquisition Institute
Training Application System (FAITAS) (or an agency system that feeds into the FAITAS).




Page 9                                     OIG-12-3 Contracting Officer Representative Training
Attachment II: Comparison of Key Features of the Office of Federal Procurement
Policy’s September 2011 Update on Federal Acquisition Certification for
Contracting Officer Representatives (COR) with GAO’s January 2012 Draft COR
Training and Certification Policy

                                                                                GAO draft policy
Policy area                     OFPP requirement                                requirement
•   Risk-based                  •   Varies training hours and                   •   Varies training hours and
    approach                        certification level based on                    certification level based on
                                    complexity of procurement                       complexity of procurement
                                                                                •   Level I certification requires
                                                                                    16 hours rather than 8
•   COR appointment             •   Assigns responsibility to the               •   Assigns responsibility to
                                    Contracting Officer to appoint,                 the Contracting Officer to
                                    in writing, the most                            formally appoint the COR
                                    appropriate COR                             •   Contracting Officer assures
                                                                                    that the COR designee is
                                                                                    appropriately qualified to
                                                                                    act as their authorized
                                                                                    representative
•   Continuous                  •   Varies training hours based                 •   Varies training hours based
    learning                        on designated certification                     on designated certification
                                    level                                           level
•   Management                  •   Assigns responsibility for                  •   Assigns responsibility for
    information                     tracking and monitoring                         monitoring continuous
    system                          training and certification to                   learning hours to the
                                    the agency                                      program manager.
                                •   Notes that Federal                          •   Specific tools for tracking
                                    Acquisition Institute Training                  and monitoring not yet
                                    Application System to provide                   addressed.
                                    agencies a robust reporting
                                    tool to process, track, and
                                    report on certification and
                                    continuous learning.
•   Transition                  •   Provides flexibility to the                 •   Not addressed
                                    agency (within certain
                                    parameters) including
                                    grandfathering in existing
                                    CORs

Source: OIG analysis based on OFPP’s September 6, 2011, Memorandum relating to revisions to the Federal Acquisition
Certification for CORs and GAO’s January 2012 Draft Proposal on COR certification.




(999807)




Page 10                                                   OIG-12-3 Contracting Officer Representative Training
                      To report fraud, waste, and abuse in GAO’s internal operations, do one of
Reporting Fraud,      the following. (You may do so anonymously.)
Waste, and Abuse in
                      •   Call toll-free (866) 680-7963 to speak with a hotline specialist,
GAO’s Internal            available 24 hours a day, 7 days a week.
Operations
                      •   Online at: https://OIG.alertline.com.

                      To obtain copies of OIG reports and testimony, go to GAO’s Web site:
Obtaining Copies of   www.gao.gov/about/workforce/ig.html.
OIG Reports and
Testimony

                      Katherine Siggerud, Managing Director, siggerudk@gao.gov,
Congressional         (202) 512-4400, U.S. Government Accountability Office, 441 G Street
Relations             NW, Room 7125, Washington, DC 20548

                      Chuck Young, Managing Director, youngc1@gao.gov, (202) 512-4800
Public Affairs        U.S. Government Accountability Office, 441 G Street NW, Room 7149,
                      Washington, DC 20548




                      This is a work of the U.S. government and is not subject to copyright protection in the
                      United States. The published product may be reproduced and distributed in its entirety
                      without further permission from GAO. However, because this work may contain
                      copyrighted images or other material, permission from the copyright holder may be
                      necessary if you wish to reproduce this material separately.
